                                    SOCIAL SECURITY

MEMORANDUM
Date:   July 15, 2003                                                    Refer To:

To:     James F. Martin
        Regional Commissioner

From: Assistant Inspector General
         for Audit

Subject: Audit of the Community Counseling Centers of Chicago – A Fee-for-Service
        Representative Payee for the Social Security Administration (A-13-03-13002)


        Attached is a copy of our final report. Our objectives were to determine whether the
        Community Counseling Centers of Chicago (1) had effective safeguards over the
        receipt and disbursement of Social Security benefits and (2) ensured Social Security
        benefits were used and accounted for in accordance with the Social Security
        Administration’s policies and procedures.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Shirley E. Todd, Director, General
        Management Audit Division, at (410) 966-9365.




                                                       S
                                                       Steven L. Schaeffer


        Attachment

        cc:
        Fritz Streckewald
        JoEllen Felice
        Candace Skurnik
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

 AUDIT OF COMMUNITY COUNSELING
  CENTERS OF CHICAGO - A FEE-FOR-
     SERVICE REPRESENTATIVE
          PAYEE FOR THE
 SOCIAL SECURITY ADMINISTRATION

   July 2003        A-13-03-13002




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the pub lic.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                Executive Summary
OBJECTIVE

Our objectives were to determine whether the Community Counseling Centers of
Chicago (C4) (1) had effective safeguards over the receipt and disbursement of Social
Security benefits and (2) ensured Social Security benefits were used and accounted for
in accordance with the Social Security Administration’s (SSA) policies and procedures.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted SSA the authority
to appoint representative payees (Rep Payees) to receive and manage these
beneficiaries’ payments. A Rep Payee may be an individual or an organization. SSA
selects Rep Payees for Old-Age, Survivors and Disability Insurance beneficiaries or
Supplemental Security Income recipients when representative payments would serve
the individual’s interests. Rep Payees are responsible for using benefits to serve the
best interests of the beneficiary.

C4 is a nonprofit social service agency whose mission is to deliver needs-based,
comprehensive mental health and substance abuse treatment and support services to
community residents. Services include behavioral health and supportive services for
adults; child, adolescent and family services; crisis intervention and assessment;
medical, mental health and substance abuse treatment; and case management. During
our audit period, SSA paid C4 approximately $2.1 million for 418 beneficiaries in C4’s
care.

RESULTS OF REVIEW
Our audit showed that C4 needs to improve its safeguards over the receipt and
disbursement of Social Security benefits and better ensure that Social Security benefit
payments are used and accounted for in accordance with SSA’s policies and
procedures. Specifically, we found that:

z   C4’s Rep Payee bank account improperly included other funds along with Social
    Security benefits.

z   C4’s check disbursement approval process did not include an independent
    verification to original invoices.

z   C4 did not establish direct deposit for beneficiary payments, leaving beneficiary
    checks vulnerable to loss and theft.

z   C4 used estimated amounts to complete Representative Payee Reports (RPRs).


Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)                         i
z   C4 charged Rep Payee fees to three beneficiaries when the Rep Payee application
    stated otherwise.

z   C4 improperly endorsed and deposited at least 71 benefit checks totaling
    approximately $43,000 made payable to 17 beneficiaries for whom C4 was not the
    Rep Payee.

We also identified three areas for SSA’s attention.

z   The Representative Payee System (RPS) included eight beneficiaries who were no
    longer in C4’s care.

z   Benefits were paid directly to a beneficiary by direct deposit when C4 was the Rep
    Payee of record.

z   SSA could not provide 11 of the 30 RPRs we requested (see Other Matter). We
    therefore could not determine whether C4 properly reported to SSA how benefits
    were spent and invested for all cases.

CONCLUSIONS AND RECOMMENDATIONS

C4 has internal control and accounting weaknesses, which prevent it from fully meeting
its responsibilities as a Rep Payee. We believe C4 needs to improve several areas of
its Rep Payee program. We recommend that SSA:

1. Ensure that C4 identifies all sources of funds in its Rep Payee account and removes
   any non-beneficiary funds. In doing so, C4 should also determine whether there are
   any SSA funds that should be paid to beneficiaries.

2. Ensure that C4’s check disbursement approval process includes verification to
   original invoices by a second person.

3. Require C4 to establish direct deposit for all beneficiaries in its care.

4. Provide training and clarify procedures with C4 for completing RPRs.

5. Determine whether C4 is permitted to collect fees from the three beneficiaries whose
   Rep Payee application stated no fees would be charged.

6. Instruct C4 to stop the practice of negotiating Social Security checks when they are
   not the official Rep Payee.

7. Determine whether the 17 beneficiaries that have their Social Security checks sent
   directly to C4 need a Rep Payee.




Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)                         ii
8. Correct the RPS to show C4 is no longer the Rep Payee for eight beneficiaries.

9. Determine whether benefit payments were properly deposited into a beneficiary’s
   bank account and determine whether the beneficiary needs a Rep Payee.

SSA COMMENTS

SSA generally agreed with all of our recommendations. However, SSA had additional
comments to Recommendations 3, 5, 6, 7 and 9.

    Recommendation 3 - SSA agreed the use of direct deposit should be considered but
noted that C4’s financial institution could not provide detailed individual deposit
information quickly enough to ensure timely payments of beneficiary expenses.

   Recommendation 5 - SSA requested specific information concerning the accounts
involved so it may determine what additional actions may be necessary.

    Recommendations 6 and 7- SSA stated C4 serves as a kind of bank, as an “in care
of” addressee, to individuals not confident of the security of their mail. As a result of our
findings, C4 and the local SSA field office have obtained additional documentation to
support this arrangement, which is made for the convenience, and at the request, of the
beneficiaries.

   Recommendation 9 - SSA stated despite inaccurate data on RPS, the Master
Beneficiary Record indicates the beneficiary has been in direct payment. C4 did not
receive any funds.

See Appendix A for the full text of SSA’s comments to our draft report.

REPRESENTATIVE PAYEE COMMENTS
C4 agreed with most of our recommendations. With respect to Recommendation 3, C4
stated it was unsure whether it could obtain detailed information for funds transmitted
via direct deposit. With regard to Recommendation 6, C4 stated SSA has allowed it to
assist beneficiaries in money management as long as each beneficiary signs an
authorized agreement. See Appendix B for the full text of C4’s comments.

OIG RESPONSE
We appreciate comments received from SSA and C4. With respect to
Recommendation 3, we continue to believe direct deposit provides improved
safeguards over benefit payments. It is an effective and efficient process that would
save C4 the time and effort of handling numerous benefit checks. In addition, we
contacted C4’s bank and verified that it would be able to provide detailed information for
funds transmitted via direct deposit.



Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)                          iii
Regarding Recommendation 5, we will provide the information requested so SSA may
determine whether C4 is permitted to collect fees from the three beneficiaries. With
respect to Recommendations 6 and 7, we understand C4 and the SSA field office have
obtained additional documentation to allow SSA benefit checks to be mailed to C4.
However, we continue to believe the beneficiary must endorse his/her own check. In
addition, SSA should determine whether any of these beneficiaries need a Rep Payee.

Regarding Recommendation 9, we agree the beneficiary was in direct payment, and C4
did not receive any funds.




Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)                  iv
                                                                     Table of Contents
                                                                                                                   Page

INTRODUCTION............................................................................................................. 1

RESULTS OF REVIEW .................................................................................................. 4

   Representative Payee Bank Account Included Non-Beneficiaries’ Funds................... 4

   Check Disbursement Approval Process Needed Improvement................................... 4

   Direct Deposit Was Not Used...................................................................................... 5

   Representative Payee Reports Were Incorrectly Prepared......................................... 5

   Representative Payee Fees ........................................................................................ 6

   Improper Endorsement of Beneficiary Checks ............................................................ 6

   Representative Payee System Included
   Beneficiaries Who Were No Longer in C4’s Care ....................................................... 7

   Benefits Were Paid to a
   Beneficiary When C4 Was the Rep Payee of Record ................................................. 7

CONCLUSIONS AND RECOMMENDATIONS .............................................................. 9

OTHER MATTER ......................................................................................................... 11

         Representative Payee Reports........................................................................... 11


APPENDICES

APPENDIX A – Agency Comments

APPENDIX B – Representative Payee Comments

APPENDIX C – OIG Contacts and Staff Acknowledgments




Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)
                                                                    Acronyms
C4                Community Counseling Centers of Chicago

MBR               Master Beneficiary Record

OASDI             Old-Age, Survivors and Disability Insurance

Rep Payee         Representative Payee

RPR               Representative Payee Report

RPS               Representative Payee System

SSA               Social Security Administration

SSI               Supplemental Security Income




Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)
                                                                              Introduction
OBJECTIVE
Our objectives were to determine whether Community Counseling Centers of Chicago
(C4) (1) had effective safeguards over the receipt and disbursement of Social Security
benefits and (2) ensured Social Security benefits were used and accounted for in
accordance with the Social Security Administration’s (SSA) policies and procedures.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted SSA the authority
to appoint representative payees (Rep Payees) to receive and manage these
beneficiaries’1 benefit payments.2 A Rep Payee may be an individual or an
organization. SSA selects Rep Payees for Old-Age, Survivors and Disability Insurance
(OASDI) beneficiaries or Supplemental Security Income (SSI) recipients when
representative payments would serve the individual’s interest.

Rep Payees are responsible for using benefits to serve the best interests of the
beneficiary or recipient. Their duties include

•     using benefits to meet the beneficiary or recipient’s current and foreseeable needs;

•     conserving and investing benefits not needed to meet the individual's current needs;

•     maintaining accounting records of how the benefits are received and used;

•     reporting events to SSA that may affect the individual's entitlement or benefit
      payment amount;

•     reporting any changes in circumstances that would affect their performance as a
      Rep Payee; and

•     providing SSA an annual Representative Payee Report (RPR) accounting for how
      benefits were spent and invested.3



1
  We use the term “beneficiary” generically in this report to refer to both Old-Age, Survivors and Disability
Insurance beneficiaries and Supplemental Security Income recipients.
2
    42 U.S.C. §§ 405(j), 1383(a)(2) (2002).
3
    20 C.F.R., §§ 404.2001 et seq., § 416.601 et seq. (2002).


Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)                                           1
About 7.6 million individuals have Rep Payees—approximately 4.5 million are OASDI
beneficiaries, 2.3 million are SSI recipients, and 800,000 are entitled to both OASDI and
SSI. The following chart reflects the types of Rep Payees and the number of individuals
they serve.

                                                           Number                 Number of
                Type of Rep Payee                             of                  Individuals
                                                          Rep Payees                Served
    Individual Payees: Parents, Spouses,
    Adult Children, Relatives, and Others                       5,333,200               6,685,100
    Organizational Payees: State Institutions,
    Local Governments and Others
                                                                   41,500                 807,400
    Organizational Payees: Fee-for-Service                             900                104,200
    TOTAL                                                       5,375,600               7,596,700
Source: Master Representative Payee File as of January 2003.

COMMUNITY COUNSELING CENTERS OF CHICAGO

C4 is a nonprofit, social service agency whose mission is to deliver needs-based,
comprehensive mental health and substance abuse treatment and support services to
community residents. Services include behavioral health and supportive services for
adults; child, adolescent and family services; crisis intervention and assessment;
medical, mental health and substance abuse treatment; and case management. SSA
benefit checks go directly to the C4 Representative Payee Department.4 During our
audit period, SSA paid C4 approximately $2.1 million for 418 beneficiaries in C4’s care.

SCOPE AND METHODOLOGY

Our audit covered the period May 1, 2001 through April 30, 2002. To accomplish our
objectives, we:

•     Reviewed the Social Security Act and SSA policies and procedures pertaining to
      Rep Payees.

•     Contacted SSA regional office and field office staffs to obtain background
      information about the Rep Payee’s performance.

•     Obtained from SSA’s RPS and the Rep Payee a listing of individuals who were in the
      Rep Payee’s care and received SSA funds as of May 1, 2001 or who left the Rep
      Payee’s care after April 30, 2002.

4
 C4’s Rep Payee Department receives SSA benefit checks, deposit funds, pays clients’ bills and
distributes money based on the case manager’s discretion and clients’ budgets.


Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)                                   2
•   Compared and reconciled the RPS and the Rep Payee’s listings to identify the
    population of SSA individuals who were in the Rep Payee’s care from
    May 1, 2001 through April 30, 2002.

•   Reviewed and tested the Rep Payee’s internal controls over the receipt and
    disbursement of OASDI benefits and SSI payments.

•   We performed the following tests for a sample of 50 beneficiaries.

    -   Compared and reconciled benefit amounts paid according to the Rep Payee’s
        records to benefit amounts paid according to SSA’s records.

    -   Reviewed the Rep Payee’s accounting records to determine whether benefits
        were properly spent or conserved on the individual’s behalf. We also determined
        whether SSA was due a refund for any overpaid benefits.

    -   Traced a sample of recorded expenses to source documents and examined the
        underlying documentation for reasonableness and authenticity.

•   Interviewed a sample of beneficiaries, personal guardians, or caregivers to
    determine whether their basic needs were being met.

•   Reviewed a sample of RPRs to determine whether the Rep Payee properly reported
    to SSA how benefits were used.

•   Reviewed a sample of Representative Payee Applications (SSA-11-BK) to evaluate
    the completeness and appropriateness of the information provided on the
    applications.

We determined the computer processed data to be sufficiently reliable for their intended
use. Further, any data limitations are minor in the context of this assignment, and the
use of the data should not lead to an incorrect or unintentional message. We tested
certain data element(s) of data extracts generated from the Agency's RPS. In addition,
we tested benefit payment receipts and disbursements recorded in the Rep Payee's
automated accounting system. We completed tests to determine the completeness,
accuracy and validity of the data. These tests allowed us to assess the reliability of the
data and achieve our audit objectives.

We performed our audit in Chicago, Illinois, and Baltimore, Maryland, between June and
December 2002. We conducted our audit in accordance with generally accepted
government auditing standards.




Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)                        3
                                                          Results of Review
Our audit showed that C4 needs to improve its safeguards over the receipt and
disbursement of Social Security benefits and better ensure that Social Security benefit
payments are used and accounted for in accordance with SSA’s policies and
procedures.

                              The Social Security: Guide for Representative Payees,
Representative Payee
                              requires that a Rep Payee bank account only have SSA
Bank Account Included
                              beneficiary funds. A Rep Payee cannot mix the
Non-Beneficiaries’
                              beneficiary’s funds with the Rep Payee’s own or other
Funds
                              funds.5 Furthermore, SSA policy states that “the account
                              must be separate from the institution’s, agency’s or
individual Rep Payee’s operating account.”6

C4 did not follow SSA’s procedures to keep SSA beneficiaries’ funds separate from
other funding. Instead, C4 deposited and, as of the date of our review, maintained
monies in the Rep Payee account from a research study, emergency assistance, and
other sources unknown to C4’s staff. We discussed this matter with C4. Staff could not
identify the sources of funding for some of the line items on C4’s balance sheet. C4 has
agreed to research the line items, identify the source of funding, and remove non-
beneficiary funds from the Rep Payee Account.

                              It is a good practice for a Rep Payee to have appropriate
Check Disbursement
                              internal controls to ensure the accuracy, completeness and
Approval Process
                              proper authorization of transactions related to the receipt and
Needed Improvement
                              disbursement of beneficiaries’ funds. As part of this, the Rep
                              Payee’s check disbursement approval process should include
a verification of original invoices by a second person.

We examined the check disbursement policy for C4 and found that the Client Account
Coordinator signed disbursement checks without examining of the original invoices.
Specifically, C4’s Data Entry Operator enters all check requests, records checks for
printing, prints checks from its Quick Books7 program, and verifies the data on the
printed check. Finally, the Data Entry Operator reviews the check, the check request,
and the original invoice to ensure they all agree. The Client Account Coordinator then
signs the checks without examining of the original invoice.



5
    SSA Publication No. 05-10076, Social Security: A Guide for Representative Payees, August 2001.
6
    Programs Operations Manual System (POMS), GN 00603.020.
7
  Quick Books is an automated accounting system C4 uses to track monies received, expenses paid, and
the current balance for each client.


Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)                                    4
We believe C4 did not have the effective controls for the disbursements of beneficiaries’
funds through the use of checks. The Data Entry Operator has numerous
responsibilities in relation to the preparation, printing and verification of checks.
Although the Data Entry Operator is not authorized to sign the checks, there is a risk of
fraud and errors. While our audit did not detect any fraud or errors, we believe C4
should establish a policy that disbursement checks be approved and signed only after
the information on the check is verified to original invoices by a second person.

As a result of our audit, C4 took corrective actions and changed its policy. The Client
Account Coordinator now verifies the checks against original invoices.

                      Federal regulations generally require that Federal payments be
Direct Deposit
                      made by direct deposit.8 Direct deposit is a secure way of
Was Not Used
                      receiving payments and protects beneficiaries from the loss, theft,
                      or delays associated with mailing paper checks. For a Rep Payee,
direct deposit is an effective and efficient process that saves the time and effort of
handling numerous benefit checks.

The requirement to receive payments by direct deposit can be waived if it would impose
a hardship on the individual. However, SSA’s Guide for Organizational Representative
Payees strongly encourages the Rep Payee to have benefit payments direct deposited
in a bank account.

C4 receives monthly benefit payments by check rather than direct deposit. We found
the manner in which C4 processed beneficiaries’ checks to be labor-intensive. C4’s
Rep Payee Department receives beneficiaries’ checks and alphabetizes the checks by
last name. Copies of the checks are made and the Data Entry Clerk inputs the check
information into Quick Books. The Client Account Coordinator prepares a deposit slip
and stamps the back of the checks. Then, the Client Account Coordinator takes the
checks to the bank for deposit.

C4 acknowledged the benefits of using direct deposit and asked its banking institution to
provide specific information from the electronic funds transfer for each beneficiary.
However, according to C4, the bank cannot identify the names of the beneficiaries with
the funds transmitted via direct deposit. We contacted the bank and verified that it
would be able to provide detailed information for funds transmitted via direct deposit.

                       Rep Payees are responsible for keeping records and
Representative
                       reporting on the use of Social Security benefits by annually
Payee Reports Were
                       completing RPRs. SSA uses the RPR to monitor how the
Incorrectly Prepared
                       Rep Payee spent and/or saved the benefits on behalf of the
                       beneficiary and identify situations where representative
payment may no longer be appropriate or the Rep Payee may no longer be suitable.9

8
    31 C.F.R. § 208.3 (2002).
9
    POMS, GN 00605.001.


Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)                         5
C4 completed the RPRs incorrectly. Instead of reviewing the beneficiary’s accounting
records in its Quick Books program, C4 personnel simply provided estimated amounts
on the RPRs. Specifically, C4 reported as spending $1,000 each on personal items for
12 of 19 RPRs we reviewed. Our review of the accounting records of one of the
affected beneficiaries showed that C4’s actual spending on personal items exceeded
$3,000.

We believe that amounts were incorrectly reported because C4 personnel were not
properly trained to complete the RPR. As a result, the information reported to SSA did
not accurately reflect the actual amounts spent on beneficiaries during the 12-month
reporting period.

                      SSA authorizes certain types of organizational Rep Payees to
Representative
                      collect a fee from a beneficiary’s monthly payment for providing
Payee Fees
                      Rep Payee services. These organizations are referred to as “fee-
                      for-service”10 Rep Payees. SSA policy states, if an organization
wants to apply to be a Rep Payee and collect a fee, it must state the following on the
Representative Payee Application (SSA-11-BK):

      1. as an authorized organization, we will collect a fee for acting as this person’s Rep
         Payee and

      2. we are/are not a creditor of this individual.11

As part of our audit, we reviewed 10 Representative Payee Applications for C4. We
found that 3 of the 10 applications stated that C4 would not collect a fee from the
3 beneficiaries. However, our audit showed that C4 charged three beneficiaries Rep
Payee fees totaling $352 during our audit period.

                           According to SSA policy, generally, the beneficiary’s mailing
Improper
                           address should be the address where he/she resides. Any
Endorsement of
                           other address is questionable and is not acceptable if it
Beneficiary Checks
                           facilitates an assignment of benefits, directs checks to a
                           location where the beneficiary cannot readily negotiate them,
or permits the beneficiary to conceal information that would result in nonpayment of
benefits. SSA policy also states that, if the mailing address is that of a hospital, nursing
home, rest home, etc., the beneficiary may need a Rep Payee.12


10
   42 U.S.C. §405 (j)(4)(A)(i) (2002) permits a qualified organization to collect from an individual a
monthly fee for expenses incurred in providing services performed as such individual’s Rep Payee. The
fee is limited to the lesser of 10 percent of the monthly benefit, or $30 per month ($58 for individuals who
have an alcoholism or drug addiction condition).
11
     POMS, NL 00703.945.
12
     POMS, GN 02605.025.


Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)                                          6
We identified 17 beneficiaries who had their benefit checks sent directly to C4. None of
the 17 beneficiaries had a Rep Payee; therefore, all of the checks were made payable
to the beneficiaries. However, we found that C4 improperly endorsed and deposited
into its Rep Payee bank account at least 71 benefit checks, totaling approximately
$43,000, without any of the beneficiaries’ signatures. As a result, there is a risk that
beneficiary funds were improperly assigned to C4 or these beneficiaries may need a
Rep Payee to manage their funds.

We informed C4 that this practice was not permitted. We also requested SSA to
determine whether these 17 beneficiaries were capable of managing their own funds.

Representative Payee            Federal regulation requires that SSA provide for specific
System Included                 identification and control of all Rep Payees and the
                                beneficiaries they serve.13 As a result, SSA established
Beneficiaries Who Were
                                the RPS, an on-line system for entering and retrieving
No Longer in C4’s Care
                                information about Rep Payees and those applying to be
                                Rep Payees. RPS contains data about Rep Payee’s
applicants, beneficiaries in the Rep Payee’s care, and the relationship between the Rep
Payee and the beneficiaries. In addition, SSA uses the RPS to select a sample of
beneficiaries for review during its site visits of Rep Payees.

To determine the number of beneficiaries in C4’s care, we compared C4 records to
information contained in RPS. The comparison identified eight beneficiaries for whom
C4 was no longer serving as Rep Payee but for whom it was recorded as the Rep
Payee in the RPS.

We analyzed information pertaining to these beneficiaries to determine why SSA had
C4 as the Rep Payee in RPS. We found that C4 records showed the beneficiaries’
accounts were closed out before our audit period. According to SSA, some of its
systems do not interface with each other to identify beneficiaries who left a Rep Payee’s
care. We provided the names to SSA so it could take corrective actions to show the
beneficiaries were no longer in C4’s care.

                         In March 2001, SSA selected C4 to become the Rep Payee
Benefits Were Paid
                         for one of the beneficiaries we reviewed. C4 was also listed
to a Beneficiary
                         in RPS and SSA’s payment records as the Rep Payee of
When C4 Was the
                         record. However, none of the beneficiary’s payments were
Rep Payee of Record
                         sent to C4. In addition, C4 returned to SSA the RPR for the
                         beneficiary and informed SSA the beneficiary was never in its
care. According to SSA, all the payments were direct deposited into the beneficiary’s
own bank account. However, we were unable to verify if, in fact, it was the beneficiary’s
bank account.

When we brought this matter to SSA staff’s attention, it could not explain how this
occurred. Therefore, we requested SSA to verify that the payments were properly
13
     42 U.S.C. § 405(j)(2) (2002). POMS, GN 00502.120.


Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)                       7
deposited into the beneficiary’s bank account and to determine whether the beneficiary
needs a Rep Payee. SSA’s records showed that, as of November 2002, the beneficiary
did not have a Rep Payee.




Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)                    8
                                                   Conclusions and
                                                  Recommendations
C4 has internal control and accounting weaknesses, which prevents it from fully
meeting its responsibilities as a Rep Payee. We believe C4 needs to improve several
areas of its Rep Payee program. We recommend that SSA:

1. Ensure that C4 identifies all sources of funds in its Rep Payee account and
   removes any non-beneficiary funds. In doing so, C4 should also determine whether
   there are any SSA funds that should be paid to beneficiaries.

2. Ensure that C4’s check disbursement approval process includes verification to
   original invoices by a second person.

3. Require C4 to establish direct deposit for all beneficiaries in its care.

4. Provide training and clarify procedures with C4 for completing RPRs.

5. Determine whether C4 is permitted to collect fees from the three beneficiaries
   whose Representative Payee application stated no fees would be charged.

6. Instruct C4 to stop the practice of negotiating Social Security checks when they are
   not the official Rep Payee.

7. Determine whether the 17 beneficiaries that have their Social Security checks sent
   directly to C4 need a Rep Payee.

8. Correct the RPS to show C4 is no longer the Rep Payee for eight beneficiaries.

9. Determine whether benefit payments were properly deposited into a beneficiary’s
   bank account and determine if the beneficiary needs a Rep Payee.

SSA COMMENTS

SSA generally agreed with all of our recommendations. However, SSA had additional
comments to Recommendations 3, 5, 6, 7 and 9.

    Recommendation 3 - SSA agreed the use of direct deposit should be considered but
noted that C4’s financial institution could not provide detailed individual deposit
information quickly enough to ensure timely payments of beneficiary expenses.

   Recommendation 5 - SSA requested specific information concerning the accounts
involved so it may determine what additional actions may be necessary.



Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)                       9
    Recommendations 6 and 7- SSA stated C4 serves as a kind of bank, as an “in care
of” addressee, to individuals not confident of the security of their mail. As a result of our
findings, C4 and the local SSA field office have obtained additional documentation to
support this arrangement, which is made for the convenience, and at the request, of the
beneficiaries.

   Recommendation 9 - SSA stated despite inaccurate data on RPS, the Master
Beneficiary Record indicates the beneficiary has been in direct payment. C4 did not
receive any funds.

See Appendix A for the full text of SSA’s comments to our draft report.

REPRESENTATIVE PAYEE COMMENTS
C4 agreed with most of our recommendations. With respect to Recommendation 3, C4
stated it was unsure whether it could obtain detailed information for funds transmitted
via direct deposit. With regard to Recommendation 6, C4 stated SSA has allowed it to
assist beneficiaries in money management as long as each beneficiary signs an
authorized agreement. See Appendix B for the full text of C4’s comments.

OIG RESPONSE
We appreciate comments received from SSA and C4. With respect to
Recommendation 3, we continue to believe direct deposit provides improved
safeguards over benefit payments. It is an effective and efficient process that would
save C4 the time and effort of handling numerous benefit checks. In addition, we
contacted C4’s bank and verified that it would be able to provide detailed information for
funds transmitted via direct deposit.

Regarding Recommendation 5, we will provide the information requested so SSA may
determine whether C4 is permitted to collect fees from the three beneficiaries. With
respect to Recommendations 6 and 7, we understand C4 and the SSA field office have
obtained additional documentation to allow SSA benefit checks to be mailed to C4.
However, we continue to believe the beneficiary must endorse his/her own check. In
addition, SSA should determine whether any of these beneficiaries need a Rep Payee.

Regarding Recommendation 9, we agree the beneficiary was in direct payment, and C4
did not receive any funds.




Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)                          10
                                                                    Other Matter
                     One method SSA uses to monitor Rep Payees is the RPR. The
Representative       RPR is intended to assist SSA in determining the (1) use of
Payee Reports        benefits during the preceding 12-month reporting period, (2) Rep
                     Payee’s continuing suitability, and (3) continuing need for
                     representative payment. Depending on the Rep Payee’s
responses, SSA may contact the Rep Payee to determine its continued suitability. We
found that SSA could not always retrieve C4’s completed RPRs.

As part of our audit, we planned to review a sample of completed RPRs to determine
whether C4 met its reporting responsibilities. We requested the most recently
completed RPRs for 30 beneficiaries. However, SSA only provided 19 of the 30 RPRs
we requested. For the remaining 11, we could not determine whether C4 properly
submitted RPRs.

However, in February 2003, SSA established an electronic imaging system that will
image and electronically store all RPR forms. The imaging system should improve
SSA’s ability to timely obtain RPRs.




Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)                   11
                                            Appendices




Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)
                                                                    Appendix A

Agency Comments




Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)
-----Original Message-----
From:               Niesman, Denise
Sent:               Wednesday, June 11, 2003 9:10 AM
To:                 Schaeffer, Steve
Cc:                 ||CHI ORC; ||CHI ARC MOS; Reeves, Robin; Condren-Kaplan, Mary
Subject:            Audit of the Community Counseling Centers of Chicago (C4) (A-13-03-13002)--REPLY



To:      Assistant Inspector General
         for Audit

From: Regional Commissioner
      Chicago

Subject: Audit of the Community Counseling Centers of Chicago (C4) - A Fee-for-
Service Representative Payee for the Social Security Administration (A-13-03-13002)--
REPLY

We reviewed the comments you sent us from C4 and other regions. Below are our
amended comments.

1. Ensure that C4 identifies all sources of funds in its Rep Payee account and
   removes any non-beneficiary funds. In doing so, C4 should also determine
   whether there are any SSA funds that should be paid to beneficiaries.

•     We agree. We review accounts as part of the triennial review process. By virtue of
      the last review, we know that funds are not routinely commingled. C4 maintains
      individual ledger accounts for each beneficiary. Some grant money was accidentally
      deposited to the beneficiary account. The money was transferred as soon as it was
      discovered. We found no evidence of SSA funds being misdirected into corporate
      accounts.

2. Ensure that C4’s check disbursement approval process includes verification
   to original invoices by a second person.

•     We understand C4 has implemented this recommendation based on conversations
      with your reviewers. It is a good business practice, although it is beyond the
      procedural requirements.

3. Require C4 to establish direct deposit for all beneficiaries in its care.

•     While we agree that the use of direct deposit should be considered there is no
      regulatory or policy basis for making this a requirement. C4 contacted their current
      financial institution and determined it cannot provide detailed individual deposit
      information quickly enough to ensure timely rent payments, etc. for C4's clients'. C4
      will continue to seek an alternative banking arrangement.

•     The Report indicates the basis for this error is The Social Security: Guide for
      Representative Payees. The Guide only contains recommendations on this issue.
Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)
4. Provide training and clarify procedures with C4 for completing RPRs.

•   We agree. The Field Office maintains regular contacts with C4. They will increase
    the training offered to new staff.

5. Determine whether C4 is permitted to collect fees from the three beneficiaries
   whose Representative Payee application stated no fees would be charged.

•   C4 is permitted to collect fees from all clients. The report did not include specific
    information about these applications. We would appreciate knowing the accounts
    involved so that we may determine what additional actions may be necessary.

6. Instruct C4 to stop the practice of negotiating Social Security checks when
   they are not the official Rep Payee.

•   C4 serves as a kind of bank, as an "in care of" addressee, to the homeless and
    people who are not confident of the security of their mail. The FO was aware of this.
    This has been a long-standing arrangement. As a result of your findings, C4 and the
    FO have obtained additional documentation to support this arrangement, which is
    made for the convenience and at the request of the beneficiaries.

7. Determine whether the 17 beneficiaries that have their Social Security checks
   sent directly to C4 need a Rep Payee.

•   See the reply to number 6 regarding additional documentation obtained for
    beneficiaries using a C4 address.

8. Correct the RPS to show C4 is no longer the Rep Payee for eight
   beneficiaries.

•   We agree. The FO has reviewed and corrected the records.

9. Determine whether benefit payments were properly deposited into a
   beneficiary’s bank account and determine if the beneficiary needs a Rep
   Payee.

•   Despite inaccurate data on RPS, the MBR indicates the beneficiary has been in
    direct payment. C4 did not receive any funds.

    If your staff have any questions, they may call Denise Niesman, Retirement and
    Survivors Insurance Team, at (312) 575-4241.


                                                         /s/
                                                      James F. Martin

Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)
                                                                    Appendix B

Representative Payee Comments




Audit of C4 – A Fee-For-Service Rep Payee for SSA (A-13-03-13002)
                                                                       Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, General Management Audit Division, (410) 966-9365

   James J. Klein, Audit Manager, (410) 965-9739


Acknowledgments

In addition to the persons named above:

   Linda A. Webester, Auditor-in-Charge

   Randy J. Townsley, Senior Auditor

   Katherine M. Baker, Auditor

   Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-13-03-13002.




Audit of C4 - A Fee-For-Service Rep Payee for SSA (A-13-03-13002)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General



                                           Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                       Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                 Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
